                                               Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Audit Announcement—                       Date:    August 3, 2005
           FAA’s Airport Surface Detection Equipment-
           Model X Program
           Project Number: 05A3011A000

  From:                                                         Reply to
           David A. Dobbs                                       Attn of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Ramesh K. Punwani
           Assistant Administrator
            for Financial Services/CFO

           The Office of Inspector General plans to conduct an audit of the Federal Aviation
           Administration’s (FAA) Airport Surface Detection Equipment-Model X (ASDE-
           X) program. FAA is developing ASDE-X in an effort to meet its safety-related
           performance goals for reducing both commercial and general aviation fatalities
           and reducing runway incursions. Prevention of runway incursions and ground
           collisions has been on the National Transportation Safety Board’s “Most Wanted
           Transportation Safety Improvements List” since 1990.

           The Senate Committee on Appropriations, in its report on FAA’s fiscal year
           (FY) 2006 appropriations expressed concern about the pace of ASDE-X
           deployment and reported FAA has not yet deployed systems to more than half of
           the planned sites due to changes in system design and additional requirements.
           FAA originally planned to complete ASDE-X deployment to second-tier airports
           (e.g., Orlando International Airport and Milwaukee General Mitchell International
           Airport) by FY 2007 as a low-cost alternative to Airport Surface Detection
           Equipment-3 (ASDE-3) radar systems, which are deployed at larger, high-volume
           airports. However, FAA now plans to complete deployment by FY 2009—a
           2-year delay. While FAA has already procured 36 out of 38 ASDE-X systems,
                                                                              2

only 3 systems have been commissioned for operational use. FAA has invested
about $250 million in ASDE-X and expects to spend a total of $505 million to
complete the program.

Our audit objectives are to (1) determine whether FAA’s strategy for deploying
ASDE-X for operational use is cost effective, (2) evaluate FAA’s process for
deploying ASDE-X to airports with the greatest potential of runway incursions
and ground collisions, and (3) assess FAA’s progress in determining whether
ASDE-X can be used to improve guidance and situational awareness for air traffic
controllers, pilots, and ground vehicle operators at airports.

We plan to begin our audit the week of August 8, 2005. We will contact your
Audit Liaison to arrange a formal entrance conference. Kevin Dorsey is the
Program Director for this audit. If you have any questions or need additional
information, please call him at (202) 366-1518.

                                       #

cc: FAA Deputy Administrator
    FAA Chief of Staff
    FAA Chief Operating Officer
    Anthony Williams, ABU-100
    Martin Gertel, M-1
